No. 20-1570

In the Supreme Court of the United States
HRB TAX GROUP, INC.; HRB DIGITAL LLC,
Petitioners,
v.
DEREK SNARR,
Respondent.
CERTIFICATE OF SERVICE
I, Archis A. Parasharami, counsel for Petitioners HRB Tax Group, Inc. and
HRB Digital LLC, hereby certify that on this 3rd day of September, 2021, I caused
three copies of the Supplemental Brief for Petitioners to be served by mail on the
following counsel:
Adam J. Gutride
Seth A. Safier
Gutride Safier LLP
100 Pine St., Suite 1250
San Francisco, CA 94111
Tel.: 415-639-9090
adam@gutridesafier.com
seth@gutridesafier.com

Scott L. Nelson
Public Citizen Litigation Group
1600 20th Street NW
Washington, DC 20009
Tel.: (202) 588-1000
snelson@citizen.org

Attorneys for Respondent
I further certify that all parties required to be served have been served.

/s/ Archis A. Parasharami
Archis A. Parasharami
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
aparasharami@mayerbrown.com

